  DEPARTMENT OF HOMELAND SECURITY

     Office of Inspector General


         Audit of the State of Colorado 

       Homeland Security Grant Program 





OIG-08-16                    December 2007
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                      December 11, 2007


                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report presents the results of our audit of the State of Colorado Homeland Security Grant
Program. It assesses the state’s homeland security strategic plan, grant spending, and management
practices and controls. It is based on interviews with employees and officials of relevant agencies
and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                             Richard L. Skinner 

                                             Inspector General 

Table of Contents/Abbreviations 


  Executive Summary ....................................................................................................................... 1 


  Background .................................................................................................................................... 3 


  Results of Audit .............................................................................................................................. 4


       Colorado’s Homeland Security Organization Faces Challenges ............................................... 4 

       Colorado Has Not Assured That Its Homeland Security Strategy Has Been Followed ............ 6 

       Grant Management Efforts Need Improvement ........................................................................ 8 

       Expenditures Were Not Always In Compliance With Grant Requirements............................ 12 

       Funding Was Not Always Allocated To High Risk Projects................................................... 16 

       Opportunities Exist For Improving Program Readiness.......................................................... 17 

       Recommendations.................................................................................................................... 19 

       Management Comments and OIG Analysis ............................................................................ 20 


  Appendices

       Appendix A:                 Objective, Scope, and Methodology.......................................................... 21 

       Appendix B:                 Homeland Security Grants 2003 - 2006 .................................................... 22 

       Appendix C:                 Program Funding Allocations FY 2003-2006............................................ 24 

       Appendix D:                 Map – Colorado’s All-Hazard Regions ..................................................... 25 

       Appendix E:                 Multi-Agency Coordination Center – Summary of Key Events................ 26 

       Appendix F:                 Summary of Questioned Costs................................................................... 28 

       Appendix G                  Grant Programs Directorate’s Response to the Draft Report..................... 29 

       Appendix H:                 Major Contributors To This Report ........................................................... 30 

       Appendix I:                 Report Distribution .................................................................................... 31 


  Abbreviations

       CFR                         Code of Federal Regulations 

       DHS                         U.S. Department of Homeland Security 

       DOJ                         Department of Justice 

       FY                          Fiscal Year        

       G&T                         Office of Grants and Training 

       OIG                         Office of Inspector General 

       UASI                        Urban Areas Security Initiative 

OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                          At the request of the Office of Grants and Training (G&T),1 we audited the
                          State of Colorado’s (Colorado) management of homeland security and urban
                          areas security initiative grants awarded by G&T during fiscal years 2003,
                          through 2006. The objective of our audit was to determine whether Colorado
                          effectively and efficiently implemented its homeland security program,
                          achieved the goals of the program, and spent funds according to grant
                          requirements. Our goal was to identify problems and recommend solutions to
                          help the Department of Homeland Security (DHS) and Colorado improve the
                          nation’s ability to prevent, prepare for, and respond to major disasters,
                          terrorist attacks, and other emergencies (‘all-hazards’ preparedness).
                          Appendix A provides additional details regarding audit objective, scope, and
                          methodology.

                          Colorado has improved its management of the grant programs, including the
                          hiring of additional executive and technical personnel and initiating program
                          reviews to improve the effectiveness of its homeland security efforts.
                          However, Colorado has not complied with critical Homeland Security Grant
                          Program requirements, as the state has not assured adequate oversight of
                          program activities and compliance with its homeland security strategy. In
                          addition, the state’s internal controls for managing homeland security grant
                          programs, and ensuring sub-grantee compliance and program readiness were
                          ineffective. This report highlights (1) the challenges facing Colorado’s
                          homeland security organization, (2) Colorado’s need to assure adherence to its
                          homeland security strategy has been followed, (3) areas where grant
                          management could be improved, and (4) opportunities for improving program
                          readiness.

                          Our report includes six recommendations for G&T to consider in improving
                          its oversight of the state’s management of Colorado’s homeland security
                          program. Our report also questions approximately $7.8 million in program
                          expenditures that we concluded were not in compliance with grant
                          requirements. Except for the expenditures we questioned, Colorado officials
                          generally agreed with our findings and noted that corrective action to address
                          most of the issues presented in this report would be taken. In the written


1
 On April 1, 2007, the Office of Grants and Training was transferred to the Federal Emergency Management Agency
and renamed the Grant Programs Directorate. For the purposes of this report, we will use G&T as the awarding entity.

                        Audit of the State of Colorado Homeland Security Grants Program 


                                                       Page 1 

OIG 

Department of Homeland Security
Office of Inspector General
                response we received on November 15, 2007, G&T agreed with the
                recommendations we made in our draft report (see Appendix G).




               Audit of the State of Colorado Homeland Security Grants Program 


                                           Page 2 

Background
                         In 1998, the Department of Justice, pursuant to Public Law 105-119,
                         established the Office for Domestic Preparedness and made it responsible for
                         developing and administering a domestic preparedness program to provide
                         financial assistance to states, U.S. territories, and local governments for
                         domestic preparedness training and equipment. Public entities such as police,
                         fire, and emergency medical personnel, commonly referred to as “first
                         responders,” generally receive this assistance through the state or territory.
                         Since its inception, the Office for Domestic Preparedness and later, the
                         Department of Homeland Security’s Office of Grants and Training (G&T),
                         awarded domestic preparedness or homeland security grants to purchase
                         specialized equipment and to develop and conduct training and exercises to
                         enhance first responder capabilities to prevent, prepare for, and respond to
                         major disasters, terrorist attacks, and other emergencies (“all-hazards”
                         preparedness).2

                         In February 2003, with the signing of Public Law 108-7, the Fiscal Year (FY)
                         2003 Consolidated Appropriations Resolution, initial funding was provided
                         for the Urban Areas Security Initiative (UASI) Grant Program. This program
                         provided federal assistance to high risk urban areas to: 1) address unique
                         planning, equipment, training, and exercise needs; and 2) assist them in
                         building an enhanced and sustainable capacity to prevent, prepare for, and
                         respond to, threats or acts of terrorism. FY 2003 through FY 2006 Homeland
                         Security and UASI Grant Programs provided financial assistance to each state,
                         U.S. territory, and the District of Columbia. As a condition for receiving
                         grant funds, G&T required grantees to develop homeland security strategic
                         plans that reflect: 1) risks and threats; 2) equipment, training, exercises, and
                         other program needs; 3) goals and objectives to enhance capabilities; and
                         4) an evaluation plan to measure the accomplishment of the goals and
                         objectives.

                         G&T awarded Colorado $156.3 million in first responder grants for FYs 2003
                         through 2006 including $125.7 million under the homeland security grant and
                         UASI grant programs. Appendix B describes the grant programs we audited,
                         and Appendix C shows program funding.

                         Colorado’s Office of Preparedness, Security, and Fire Safety within the
                         Department of Public Safety served as the State Administrative Agency from

2
 On March 1, 2003, the Office for Domestic Preparedness transferred from the Department of Justice to DHS’
Preparedness Directorate and was later renamed the Office of Grants and Training. On April 1, 2007, the Office of
Grants and Training became part of the National Preparedness Directorate under the Federal Emergency Management
Agency. An Assistant Administrator for Grant Programs will now oversee homeland security and urban area grants but
for the purposes of this report we will use G&T as the awarding entity.

                       Audit of the State of Colorado Homeland Security Grants Program 


                                                      Page 3 

                2002 through the end of the state fiscal year 2004. On July 1, 2004, the
                Division of Emergency Management within Colorado’s Department of Local
                Affairs assumed State Administrative Agency responsibility for administering
                FY 2003 and subsequent years’ grants. In this capacity, the Department of
                Local Affairs was responsible for allocating federal grants to state agencies
                and local jurisdictions and for overseeing compliance with program
                requirements.

                Colorado’s homeland security program serves nine All-Hazard Emergency
                Management Regions and the Denver urban area under the UASI grant
                program (Denver UASI). The 9 regions include 64 counties and 2 Indian
                Tribes. The Denver UASI includes the City and County of Denver and parts
                of four other counties. Appendix D depicts Colorado’s all-hazards regions.

Results of Audit

     Colorado’s Homeland Security Organization Faces Challenges
                Notwithstanding the changes made by Colorado to develop and improve
                processes and procedures for managing homeland security and UASI grants,
                the state’s oversight of these grants has not been effective because of a lack of
                statewide control and significant turnover among senior management. G&T
                stated in its FY 2006 Homeland Security Grant Program Guidance and
                Application Kit that a state homeland security program should provide a
                strategic and management framework to integrate and ensure consistency
                among program activities, plans, and procedures.

                Since 2003, Colorado continued to develop processes and procedures for
                managing its homeland security program and to improve preparedness as
                illustrated below:

                • 	 In FY 2003, the state established nine all-hazard regions,

                • 	 In FY 2004, the state reorganized its homeland security administration
                    wherein the state’s Department of Local Affairs became the grantee and
                    State Administrative Agency, and

                • 	 For FY 2005, the state created a Senior Advisory Committee as required
                    by G&T’s grant program guidance to provide a direct link between
                    homeland security program activities and the Governor.

                State Executive Order B 002 05 established the Homeland Security and
                All-Hazard Senior Advisory Committee and among other things, required the

              Audit of the State of Colorado Homeland Security Grants Program 


                                          Page 4 

 committee to: 1) meet at least quarterly, 2) oversee federal assistance for the
 state’s homeland security program, 3) review annually the state homeland
 security strategy and make recommendations on the goals, objectives, and
 priorities, and 4) prepare written quarterly reports to advise the Governor
 regarding planning, implementation, and achievement of the goals in the
 strategy.

 Despite the changes noted above, Colorado’s homeland security organization
 was ineffective and provided only minimal assurance that its processes were
 well controlled or that program funding was allocated in a collaborative and
 transparent manner to mitigate statewide risks and accomplish the goals and
 objectives of its homeland security strategy. Specifically,

     • 	 The committee had not met the objectives of the Governor’s executive
         order in that it did not regularly hold meetings or report to the
         Governor on a quarterly basis. Further, the committee had not
         reviewed the state’s grant applications, or reviewed sub-grantee
         applications from the all-hazard regions and UASI for FYs 2005 and
         2006.

     • 	 The committee had not formally reviewed the state homeland security
         strategy or evaluated the outcomes of funded activity. There was no
         evidence that homeland security funding from all sources was
         allocated in a collaborative manner or that funded projects were
         evaluated based on statewide risks. Local agency sub-grantee
         applications and funding recommendations were made independent of
         one another by separate entities, rather than as a collaborative
         statewide risk mitigation effort. This lack of activity and collaboration
         by the Senior Advisory Committee was indicative of a significant
         leadership and oversight void.

     • 	 Ineffective statewide oversight was exacerbated by a high turnover
         rate among executive management. For example, three different
         individuals held the position of Executive Director in the state’s
         Department of Local Affairs from July 2004 through December 2006.
         In one instance, the same individual served as the Director of the
         Division of Emergency Management, Acting Executive Director of the
         Department of Local Affairs, and the State Administrative Agency
         Director. In August 2006, a new Department of Local Affairs
         Executive Director was hired. In addition, the Governor also
         appointed the new Director of the Division of Emergency
         Management as the State Administrative Agency Director. However,
         this individual vacated the position in April 2007.


Audit of the State of Colorado Homeland Security Grants Program 


                            Page 5 

              • 	 The State Administrative Agency made state policy and allocation
                  decisions that exceeded its advisory or administrative role in such
                  activities. In most cases, the Senior Advisory Committee was not
                  included in the decisions.

           In the absence of leadership and oversight from the Senior Advisory
           Committee, the State All-Hazard Advisory Committee provided ‘in lieu’
           leadership. For example, at its February 2007 meeting, this committee voted
           to modify and continue the 2006 state strategy into grant year 2007 and to
           revise it, as needed, for grant year 2008. Typically, the role of the committee
           is to make recommendations and provide advice to the State Administrative
           Agency. It does not have authority to modify state directives or policy, such
           as the state’s homeland security strategy.

           Overall, Colorado’s homeland security management organization met critical
           program deadlines, but as discussed in the remaining findings in this report,
           the state was unable to perform all of the expected functions related to G&T’s
           grant guidelines and state and federal fiscal guidance. Without strong
           commitment to providing the leadership and staffing needed to administer its
           homeland security program, the state may be unable to sustain its stated
           homeland security intentions or meet the federal guidelines associated with
           receiving federal homeland security grant funding.

           Comments from state officials. State officials agreed with this finding and
           noted that the Governor's staff is conducting a broad review of all state
           homeland security organizations including the Senior Advisory Committee.
           Changes are expected by early fall 2007. Regarding the grant review process,
           the state will use its Division of Emergency Management Policies and
           Procedures 06-02, dated December 8, 2006, for 2007 wherein the Senior
           Advisory Committee will have a review and approval role for all state and
           local sub-grantee applications.

Colorado Has Not Assured That Its Homeland Security Strategy Has Been
Followed
           In 2005, G&T performed a capabilities assessment and a review of the
           2003 Colorado Homeland Security Strategy and reported that the state had not
           achieved some of the critical elements, including planning, training and
           exercises, specified in its strategy. While the state: (1) revised the strategy in
           2006, (2) aligned its goals with National Preparedness Goals and Presidential
           Directives, and (3) assigned objectives, with specified due dates, to various
           stakeholders, it had not verified with the stakeholders whether the milestones
           through December 2006 were met for certain state goals and objectives. As a
           result, the state did not have assurance that its goals and objectives were met,

         Audit of the State of Colorado Homeland Security Grants Program 


                                     Page 6 

 whether federal dollars were effectively or properly spent, or whether the state
 had realized improvements in preparing for an all-hazards emergency,
 including a terrorist attack.

 A viable homeland security strategy provides a blue print for comprehensive,
 enterprise-wide planning for homeland security efforts; and strategic direction
 for enhancing the state’s capability and capacity to prevent, prepare for and
 respond to major all-hazards events, including terrorist attacks. It also
 provides state and local officials with the means to develop interlocking and
 mutually supporting emergency preparedness programs. In order to maintain
 reliability of the goals and objectives in the strategy and related funding
 requests, the state is required to evaluate and update the strategy annually – a
 task that necessitates coordination with stakeholders.

 The state was unaware that some of the state agency stakeholders we visited
 measured their successes; were attempting to achieve revised 2006 goals,
 objectives, and milestones; and were revising objectives for 2007. Other
 stakeholders were not aware of the revised 2006 strategy objectives, assigned
 milestones, or that they were responsible for completing an objective. These
 stakeholders provided a variety of reasons for not updating or complying with
 the 2006 strategy. Some explained that state had not: (1) provided revisions to
 the final draft of the 2006 strategy, (2) informed the stakeholder s of
 individual responsibilities and milestones required by the strategy, or
 (3) provided a complete copy of the strategy showing revised objectives or
 milestones. Others noted that objectives in the strategy were vague and the
 state had not provided guidance for measuring accomplishments.

 Because some stakeholders failed to meet specific responsibilities under the
 2006 strategy, critical statewide goals and objectives were not completed. For
 example, one objective required that the nine all-hazard regions develop a
 terrorism annex to their emergency operations plans and submit a copy to the
 state by December 2006. While the state’s strategy identifies this effort as a
 national priority, our review of records and discussions with state officials
 showed that the objective was not completed because some Regions failed to
 take action on this objective and the state failed to enforce the requirement.
 We also identified instances where state homeland security program
 administrators within the State Administrative Agency had not completed
 national priorities assigned to them in the strategy. For example, the training
 coordinator had not initiated specialized training to elected officials, and the
 exercise coordinator had not evaluated exercise after-action-reports to
 determine areas needing improvement.

 Colorado needs to take effective and immediate action to ensure that
 stakeholders comply with strategy goals, objectives, and milestones and that

Audit of the State of Colorado Homeland Security Grants Program 


                            Page 7 

          the strategy becomes a long-term plan annually updated with clear and
          measurable goals and objectives. By monitoring compliance with the
          strategy, Colorado can have some assurance of success in meeting program
          goals.

          Comments from state officials. State officials agreed with this finding and
          explained that the Division of Emergency Management, in cooperation with
          the State All-Hazard Advisory Committee and state agencies, is proposing
          changes to the homeland security planning cycle with assistance from the
          University of Colorado (contract vendor). The State Administrative Agency
          plans to synchronize the strategy planning process with the grant cycle
          thereby creating a more inclusive and transparent process. They noted that
          this initiative is dependant upon a predictable federal grant cycle.

Colorado’s Grant Management Efforts Need Improvement

          Colorado needs to improve internal controls and management of its homeland
          security program to ensure the accuracy of recorded transactions and to certify
          sub-grantee compliance with federal and state requirements. Further, staff
          members managing the grant programs were few in number and not
          sufficiently trained, and thus sub-grantee monitoring efforts were ineffective.

          The State of Colorado, as a grantee, is responsible for establishing and
          maintaining accounting systems, internal controls, and accounting records to
          properly account for grant activities. In addition, the state is responsible for
          managing the grant programs to ensure: 1) the success of grant applications
          review and award processes, 2) the eligibility and supportability of claims and
          cost reimbursements, and 3) sub-grantees’ grant management practices
          conform to state and federal guidelines.

          Ineffective Internal Controls

          The state lacked effective internal controls for managing its homeland security
          grant program. Specifically:

              • 	 Federal drawdowns were not reviewed for accuracy and the state drew
                  down cash in excess of needs. In two instances, the state initiated cash
                  drawdowns of about $4 million in excess of needs but did not detect or
                  correct the error until weeks after the transactions took place. In
                  addition, the state earned about $11,555 in interest from excess
                  drawdowns. State officials agreed to forward the interest to the federal
                  government and to strengthen their procedures to ensure cash
                  drawdowns are not in excess of needs.


         Audit of the State of Colorado Homeland Security Grants Program

                                     Page 8
     • 	 Cash advances to sub-grantees were not monitored to ensure
         compliance with federal cash management requirements. The state
         was unaware that certain cash payments to sub-grantees were not for
         immediate needs. In one instance, a sub-grantee earned $5,460 in
         interest from a cash advance but did not forward the interest earned to
         the state or to the federal government. The 2005 State Auditor’s report
         identified this weakness and recommended recovery of an unspecified
         amount of interest earned by sub-grantees during a 9-month period.
         However, the state did not take action on the recommendation because
         the related sub-grantee awards had been closed.

     • 	 Grants management reports generated from the state’s “Oracle”
         database were not reviewed for accuracy and completeness. We
         identified errors in the reports that had not been detected or corrected.
         State officials agreed that the reports included errors and planned to
         update the programming and to monitor accuracy.

     • 	 Inventories of grant-funded equipment were incomplete or not
         maintained. The state’s inventory database did not reflect all
         equipment purchased with homeland security and UASI grant funds,
         and the sub-grantees we visited either kept incomplete inventory
         records or kept no records at all. In addition, not all sub-grantees
         maintained adequate inventories of sensitive security equipment, such
         as portable radios and critical first responder equipment.

     • 	 Sub-grantees accounted for some management and administrative
         costs as direct program costs, and the state did not have procedures in
         place to ensure that reimbursements for management and
         administrative costs remained below or at the percentage allowable
         under the grants. Sub-grantees’ accounting records showed that the
         administrative tasks of a grant coordinator and tasks associated with
         general computer equipment were recorded as direct program costs
         instead of management and administrative costs. In addition,
         sub-grantees did not specifically separate claimed management and
         administrative costs by grant effort or year. Thus, the state did not
         have an accurate record of management and administrative costs
         relative to a specific grant and a specific year.

         In addition, management and administrative costs claimed by the state
         included a charge of 20 % of the salaries paid to seven state field
         managers. These managers assisted the state in providing field support
         in all areas of emergency management. The state did not monitor the
         employees’ efforts or the benefits they provided to the homeland
         security grant program.

Audit of the State of Colorado Homeland Security Grants Program 


                            Page 9 

     • 	 Established grant application, review, and award processes were not
         always understood or followed. For example, the state awarded
         $1.5 million to a state agency to acquire Colorado’s Multi Agency
         Coordination Center – a project not eligible under the FY 2004 State
         Homeland Security Grant Program. The State Auditor and G&T
         questioned this transaction; and the state has since returned the funds
         to G&T. However, some state officials still believe the transaction
         was proper and that the state should have been allowed to retain the
         funds. We confirmed that in this instance the state did not follow grant
         award protocols and awarded the grant funds for an ineligible purpose.
         See Appendix E for a chronology of key events on this issue.

     • 	 The state did not ensure that funds were spent within the stated grant
         performance period. G&T’s financial management guide provides that
         funds not properly obligated by the recipient within the grant
         performance period will lapse and revert to G&T. Instead of enforcing
         this requirement, the state routinely granted time extensions to
         sub-grantees or allowed transfers of costs from recently awarded
         grants to older grants to exhaust expiring funds.

     • 	 The state did not perform analytical reviews of grant applications to
         ensure the adequacy of planned grant expenditures and cost estimates.
         Grant estimates were generally overstated, resulting in surplus funds at
         the sub-grantee because actual costs were less than budgeted. Unlike
         state agencies that received homeland security funding from the state,
         most of the other sub-grantees kept the extra funds and used them for
         other projects. In some cases, they purchased items in numbers that
         exceeded those authorized in the grant agreement. In other instances,
         sub-grantees re-directed the funds by making transfers among budget
         line items; e.g., applying unused exercise and training funds to pay for
         equipment, supplies, and management and administrative costs.

 Insufficient Number of Trained Staff

 State employees managing homeland security and UASI grant programs were
 few in number and were not sufficiently trained. High employee turnover
 hampered the state’s ability to manage these grant programs and monitor
 sub-grantee spending.

 In September 2006 when this audit started, seven individuals accomplished
 homeland security grant management functions within the State
 Administrative Agency on a full- or part-time basis. Those employees
 included a recently hired State Administrative Agency Director, a Branch
 Chief, a Program Administrator, a trainee, a part-time grant technician, an

Audit of the State of Colorado Homeland Security Grants Program 


                            Page 10 

 accountant, and a temporary employee hired to conduct sub-grantee site visits
 and monitoring. As of November 2006, five of the seven employees
 remained. The State Administrative Agency Director and Program
 Administrator continued managing the grants, the accountant processed grant
 claims on a part time basis, and two employees, borrowed from other
 departments, processed incoming grant information. The borrowed
 employees had no formal grant management training, and one employee had
 no prior experience in grant operations.

 As of May 2007, a new acting Division of Emergency Management Director
 (State Administrative Agency) and Branch Chief (filled by promoting the
 Program Administrator) remained as the only permanent employees involved
 in homeland security grants management. While the State Administrative
 Agency continued grant operations with one employee borrowed from another
 department, the lack of adequately trained staff impacted grant management
 operations and resulted in overall weak internal controls for managing
 program activities. In addition, officials from the all-hazards regions
 expressed dissatisfaction with the State Administrative Agency in that they
 had difficulty obtaining adequate and timely grant technical support.

 Sub-grantee Monitoring Efforts Were Not Effective

 The State Administrative Agency performed limited on-site, sub-grantee
 monitoring visits during FYs 2003 through 2005. Those visits were
 conducted on an add-hoc basis and reviews were limited to verifying the
 delivery and physical location of equipment purchased under the grants. The
 State Administrative Agency did not perform any on-site monitoring reviews
 of grant financial management practices until FY 2006. Despite its current
 efforts to expand the depth and breadth of on-site sub-grantee monitoring,
 deficiencies remain in the State Administrative Agency’s monitoring process.

 The State Administrative Agency developed a formal sub-grantee monitoring
 guide that included specific steps for evaluating grant financial management
 practices and for verifying equipment purchases during on site monitoring
 visits. Using its guide, the State Administrative Agency completed
 monitoring reviews of the 9 all-hazards regions, 16 state agencies, and the
 Denver urban area in FY 2006 but reported no adverse findings. However,
 State Administrative Agency records supporting its on site monitoring efforts
 and our reviews at selected sub-grantee locations disclosed deficiencies in the
 monitoring process.

     • 	 State records generally did not include documentation to support the
         adequacy and thoroughness of the monitoring. The completed
         monitoring guides included minor comments and checkmarks that

Audit of the State of Colorado Homeland Security Grants Program 


                            Page 11 

                  indicated a step was completed, but no explanations were provided to
                  describe the details of the work. The employee who completed the
                  reviews explained that the purpose of the site visits was primarily to
                  provide technical support. This individual further explained that
                  discrepancies observed in grant management were resolved in the
                  field; thus, they were not recorded or disclosed in the sub-grantees’
                  site monitoring reports.

              • 	 Our review of financial management practices of some sub-grantees
                  produced different results. As noted in this finding and other areas of
                  this report, sub-grantees did not always comply with grant financial
                  management practices. We identified deficiencies with cash
                  management, procurement, equipment inventories, and general grant
                  compliance.

          Comments from state officials. State officials agreed that grant management
          efforts need improvement and explained that the state has taken steps to
          correct the internal control weaknesses discussed in this finding. With regard
          to management and administrative costs, they said additional controls have
          been introduced with the 2006 grant awards including steps to discontinue
          routinely charging 20% of the field managers’ salaries to the grants. Instead,
          they plan to charge only the actual time spent by the managers on program
          activities. They also said that transferring costs from recently awarded grants
          to older grants was done on an exception basis. The state officials we talked
          to said that the state is planning to: (1) hire two employees to help manage
          homeland security and UASI grant programs, (2) develop a training checklist
          for new staff by June 1, 2007, (3) establish a training program for all staff by
          August 1, 2007, and (4) hire a financial compliance officer to improve state
          monitoring of sub-grantee activities.

Expenditures Not Always in Compliance With Grant Requirements
          We reviewed the propriety of $26.9 million in homeland security and UASI
          grant expenditures and questioned about $7.8 million in costs claimed against
          those grants. The costs we questioned relate to the potential supplanting of
          state or local funds with federal funds ($3,900,000), commingling of grant
          program funding ($3,457,553), paying ineligible construction costs
          ($252,235), and paying other unallowable costs ($229,508). Appendix F
          summarizes the costs we questioned by grant program and grant year.

          Office of Management and Budget Circular A-87, Cost Principles for State,
          Local, and Indian Tribal Governments, 2 CFR Part 225, requires that costs
          charged to the grants (federal awards) must be: a) allocable to federal awards


         Audit of the State of Colorado Homeland Security Grants Program 


                                     Page 12 

                         and b) comply with any limitations set forth in the terms and conditions of the
                         federal awards, such as grantor (i.e., G&T) guidelines and grant requirements.

                         Potential Supplanting of Grant Funds

                         G&T guidelines and grant regulations prohibit the use of federal funds to
                         supplant state or local funds appropriated for objectives similar to grant
                         purposes. Specifically, the Department of Justice (DOJ), Office of Justice
                         Programs financial guide, part II, chapter 3 – standards for financial
                         systems/supplanting, specifies that federal funds must not replace those
                         (state/local) funds that have been appropriated for the same purpose… and the
                         applicant or grantee will be required to supply documentation demonstrating
                         that the reduction in non-Federal resources occurred for reasons other than the
                         receipt or expected receipt of federal funds3. Also, Title 28, Code of Federal
                         Regulation, Part 66, Uniform Administrative Requirements for Grants and
                         Cooperative Agreements to State and Local Governments, Section 66.40,
                         requires grantees to monitor grant and sub-grant supported activities to assure
                         compliance with applicable federal requirements and to ensure that
                         performance goals are achieved.

                         The North Central Region expended $3.9 million of FY 2004 Homeland
                         Security Grant Program funds for infrastructure equipment associated with a
                         digital trunked radio system (system). Section 24-30-908.5 of the Colorado
                         revised statutes establishes the state’s Public Safety Communications Trust
                         Fund to pay for the acquisition and maintenance for public safety
                         communications equipment, including the digital trunked radio system
                         components. Using trust funds, the state purchased two of the three radio
                         system controllers needed for its communications infrastructure and the region
                         purchased the third controller. Region officials stated that the state’s
                         communications infrastructure required the third controller for system
                         expansion and would allow: 1) for additional repeater sites to be added to the
                         statewide system, 2) communications centers to directly access the system
                         without backroom equipment, and 3) agencies utilizing non-compatible
                         equipment to create easy points of access between communications centers.

                         Records supporting the purchase of the third controller and discussions with
                         state officials indicated that the region and the state agreed that title to the
                         controller would transfer from the region to the state after acquisition and the
                         equipment would become part of Colorado’s overall communications
                         infrastructure. However, the region did not transfer the equipment to the state
                         but transferred title to a local non-profit organization. This non-profit
                         organization is a consortium of government agencies that manage

3
  DOJ, Office of Justice Programs, provided financial management support and monitoring of homeland security grants
through fiscal year 2005.

                       Audit of the State of Colorado Homeland Security Grants Program 


                                                      Page 13 

 communications issues for the State of Colorado and is organized exclusively
 for the purpose of managing, promoting, and propagating the Colorado
 Statewide Digital Trunked Radio System. There was no indication in the files
 that the region sought or received approval from the state or G&T. Regarding
 the transfer, the region’s Board of Directors minutes stated, “…all operating
 and maintenance expenses will be the responsibility of the local non-profit
 and if the local non-profit is unable to fulfill ownership requirements in the
 future, the zone controller will be turned over to the State.” Further, the
 region’s procurement did not conform to federal, state, and local acquisition
 requirements inasmuch as the acquisition was sole source procurement and
 was not reviewed or approved by responsible officials.

 With regard to applying federal funds to purchase the third controller, a state
 official explained that homeland security grants allowed for the expenditure
 and therefore using the trust fund monies was not necessary. We did not
 verify the balance of the trust fund and related budgets as of the date the
 controller was acquired because the Colorado State Auditor was in the process
 of auditing the trust fund. We recommend that G&T contact the Colorado
 State Auditor and determine the nature of the transaction. We also
 recommend that, if state funds were supplanted with federal funds, G&T
 de-obligate the $3.9 million of 2004 grant funds applied to the purchase of the
 third controller.

 Commingling of Grant Funds

 Federal regulations require sub-grantees to obtain approval prior to
 transferring grant funds among direct cost categories or among separately
 budgeted programs, functions, or activities, when such transfers would exceed
 10% of the total approved budget whenever the grantor’s share exceeds
 $100,000. These regulations also require sub-grantees to obtain prior
 approval for revisions to project scope or objectives and provide two other
 instances when sub-grantees must obtain prior approval for fund or budget
 transfers. In addition, G&T’s financial guide requires separate accounting for
 each grant award and prohibits commingling funds on either program-by
 program or project-by-project bases. The guide also specifies that funds
 specifically budgeted and/or received for one project may not be used to
 support another.

 We question $3.4 million in transfers among grants because prior written
 approval had not been obtained from G&T. Of the amount questioned, we
 identified $2 million at the Denver UASI and $1.4 million attributable to other
 sub-grantees. The transfers were initiated because: 1) older grants had
 reached the end of the grant performance period and unspent funds were due
 to expire; and 2) the sub-grantees did not want to return the unspent funds to

Audit of the State of Colorado Homeland Security Grants Program 


                            Page 14 

 the state. These transfers undermine the appropriateness of the grant award
 process and do not ensure: 1) appropriate expenditure of grant funds;
 2) effective management of G&T grant resources; and 3) programmatic and
 fiscal accountability. In addition, we question how the sub-grantees plan to
 use the grant funds awarded under current grant programs since approved
 project expenditures under the current awards were defrayed by funds
 transferred from the expiring awards.

 Ineligible Construction Costs

 The Denver UASI used $252,235 of grant funds to pay for ineligible
 construction costs. Specifically, the Denver UASI used $116,427 of the
 FY 2003 grant to construct a foundation, stairs, and a room for interoperable
 equipment at one site and $135,808 of the FY 2004 grant to construct a
 telecommunications room at the City of Denver’s new fire station. G&T
 program guidelines specifically prohibit the use of grant funds for
 construction or renovation of facilities.

 Unallowable Costs

 The Denver UASI claimed $236,606 in consulting fees that were not prorated
 among benefiting activities. The fees related to a City of Denver
 interoperable communications project that was funded with UASI and DOJ
 grants and with City of Denver funds. Denver UASI and City of Denver
 records show that $236,606 in fees was charged to the FY 2004 UASI grant
 although the grant only represented 3% of the overall project objective and
 costs. As such, only $7,098 of the fees was attributable to the UASI grant
 ($236,606 x 3%) and the other $229,508 is questioned as an unallowable cost
 ($236,606 x 97%). Office of Management and Budget Circular A-87, G&T’s
 financial guidelines, and the Office for Justice Programs financial guide
 require sub-grantees to maintain adequate documentation of grant
 expenditures and allocate the cost of goods or services to cost objectives in
 accordance with relative benefits received.

 Comments from state officials. The state officials who reviewed this finding
 did not agree that the cost of the digital trunked radio controller should be
 questioned and explained that the state infrastructure did not require the
 equipment. Therefore, they concluded that using homeland security grant
 funds to purchase the controller was not supplanting local funds. They agreed
 that the equipment was transferred to the non-profit without state or G&T
 approval, but did not provide a comment about procurement standards that the
 sub-grantee failed to follow. The state also noted that it plans to resolve
 remaining issues as follows: 1) UASI transfer of $317,451 among grants will
 be resolved by December 31, 2007, 2) ineligible construction costs of

Audit of the State of Colorado Homeland Security Grants Program 


                            Page 15 

           $252,235 will be resolved by October 31, 2007, and 3) unallowable costs of
           $236,606 will be resolved by October 31, 2007. The state acknowledged that
           transfers between newer grants and older grants have occurred but only on an
           exception basis. Since we completed the review of costs after our fieldwork,
           state officials did not have an opportunity to comment on the $3.1 million in
           transfers among grants that were initiated by state grant administrators.

Funding Was Not Always Allocated To High Risk Projects
           From FY 2003 to FY 2006, Colorado improved its methodology to ensure that
           grant funds were allocated to the state’s highest priorities; and in FY 2007, the
           state continued to make improvements. However, the state did not always
           reallocate surplus or excess grant funding to projects with the highest
           priorities. Colorado’s State Homeland Security Strategy and federal
           homeland security program guidelines identify risk as the primary factor to
           consider when allocating grant funds. The state should use planning and data
           from multiple sources to identify and fund the highest priority activities on a
           statewide basis. This ensures that the state’s homeland security preparedness
           contributes to national preparedness goals.

           Documentation for the FY 2005 homeland security grant program showed that
           the state reallocated about $600,000 reverted from a canceled state project to
           eight of the nine all-hazards regions but documentation did not support that
           the funds went to projects with a high statewide priority. Further, the state did
           not monitor sub-grantees to ensure that they returned excess funds resulting
           from over estimated costs in grant budgets. While state guidelines require
           prior approval for reusing excess funds, local sub-grantees did not comply
           with the requirement, and the state did not enforce it. For example, two of the
           five all-hazards regions visited used over $250,000 in excess funds to acquire
           radio equipment in excess of the number approved in their grant budgets. The
           state only became aware of the transactions when the regions submitted the
           costs for reimbursement. Finally, the state either approved or allowed
           sub-grantees to reallocate grant funds within budget line items without
           considering high-priority needs on a statewide basis.

           Comments from state officials. State officials agreed with this finding and
           noted that equipment prices fluctuated due to market conditions. These
           officials noted that previously, the regions operated autonomously and could
           use unexpended funds to pay for the next highest regional priority once
           approved by the regional board of directors. However, because of the
           Governor’s interest in implementing a clearer homeland security strategy, the
           State Administrative Agency is strengthening methods for identifying and
           funding the regions’ highest priority projects.


         Audit of the State of Colorado Homeland Security Grants Program 


                                     Page 16 

Opportunities Exist For Improving Program Readiness
           While the state has taken steps to acquire needed equipment and to establish
           exercise and training programs, it has not ensured equipment readiness or
           effectively implemented exercise and training programs. The overarching
           objective of the homeland security grant program is to provide federal funding
           for the purchase of specialized equipment, exercises, and training to assist the
           state in its efforts to meet national preparedness goals.

           Equipment Readiness

           A sub-grantee is responsible for ensuring the overall readiness of equipment
           once purchased and received, including keeping inventories, training
           operators, and providing regular maintenance. The state lacked guidance on
           equipment readiness requirements and sub-grantees did not always keep
           equipment inventories or use or plan to use some of the purchased equipment.
           For example:

              • 	 A sub-grantee mistakenly omitted a phone system in a command
                  vehicle from its inventory. The system was not functional at the time
                  of our visit, but because it was not included in the inventory, the
                  manufacturer was not contacted to address the defect while it was still
                  under warranty.

              • 	 The picture below depicts a decontamination tent that remained in its
                  original box for over 6 months without an immediate plan for using it
                  or training personnel. Hospital officials explained that they hoped to
                  use the tent for personal protective equipment training but could not
                  provide us a timeline for when the training would be developed.




         Audit of the State of Colorado Homeland Security Grants Program 


                                     Page 17 

     • 	 Radiation detectors, such as the one pictured below, remained stored
         and undistributed months after being purchased because sub-grantees
         had not executed memoranda of understanding with the future
         recipients of the equipment.




 A 2005 state audit reported similar equipment readiness issues, including
 damaged equipment, emergency weather information systems and radio
 equipment not distributed for months, personal protective equipment not
 inventoried or distributed to end users, and instances of untrained equipment
 users.

 Exercise and Training

 State representatives responsible for managing homeland security exercise and
 training programs did not have a clear understanding of their assigned
 responsibilities and were not in compliance with the objectives and timelines
 of state’s homeland security strategy. In addition, state representatives were
 not always coordinating program activities with stakeholders and the
 stakeholders expressed concern regarding the representatives’ role in meeting
 program objectives.

 The state exercise representative neither participated in exercises conducted
 throughout the state, nor reviewed after action reports to: (1) identify areas for
 improvements and (2) ensure the adequacy and implementation of corrective
 actions. Similarly, the state training representative, as a general practice, did
 not collect training data from the regions or Denver UASI and did not
 maintain an ongoing dialog with stakeholders to identify training needs.

 Program readiness is critical to ensuring that emergency personnel can
 effectively respond to acts of terrorism and natural disasters. Because the
 state did not monitor equipment readiness and has not implemented effective

Audit of the State of Colorado Homeland Security Grants Program 


                            Page 18 

         exercise and training programs, it has little assurance that critical response
         components, such as medical, health, and mutual aid systems, will be effective
         when responding to emergencies.

         Comments from state officials. Senior state officials agreed with our finding
         and noted that the Division of Emergency Management has developed and
         implemented new policies and procedures for equipment monitoring.
         Monitoring will include verification by Regional Field Managers that the
         equipment is ready and in working order. Training and exercise functions are
         being assessed by the Division of Emergency Management director and a plan
         for improving both programs will be developed by June 30, 2007.

Recommendations
         We recommended that the Acting Assistant Administrator, Grant Programs
         Directorate:

             Recommendation #1: Monitor Colorado's review of its homeland
             security responsibilities and organizational structure and provide technical
             assistance, guidance, and training, as needed, to ensure that Colorado
             (1) achieves its organizational objectives planned for the fall of 2007,
             (2) establishes a sustainable organization, and (3) pays particular attention
             to management controls, including accountability and executive level
             oversight of all homeland security activities.

             Recommendation #2: Monitor Colorado’s development, maintenance,
             and use of its homeland security strategy as a long-range planning
             instrument and evaluate the state’s strategy planning cycle to ensure there
             is an adequate and effective evaluation of risk, capabilities, needs, and
             outcomes.

             Recommendation #3: Provide Colorado technical assistance, as needed,
             to ensure that it takes effective action to:

                 a. 	 Improve grant management internal control weaknesses identified
                      in this report,

                 b. 	 Remit $11,555 in interest earned on excessive federal drawdowns,

                 c. 	 Remit $5,460 in interest earned by one sub-grantee on federal
                      advances,

                 d. 	 Adequately staff the State Administrative Agency to administer the
                      state’s homeland security program effectively,

        Audit of the State of Colorado Homeland Security Grants Program 


                                    Page 19 

                 e. 	 Improve sub-grantee monitoring site visits,

                 f. 	 Properly account for and claim management and administrative
                      costs by grant award at the state and sub-grantee levels, and

                 g. 	 Discontinue its practice of transferring costs from recently awarded
                      grants to older grants to exhaust expiring funds.

             Recommendation #4: Review and report on the eligibility of the
             $7.8 million in homeland security grant expenditures questioned in this
             report and disallow those costs determined to be unallowable or
             unsupported.

             Recommendation #5: Monitor Colorado’s practices for grant allocations
             and work with the state to ensure that it allocates grant funding to projects
             with the highest risk and priority.

             Recommendation #6: Assist Colorado in establishing (1) a means to
             regularly monitor statewide equipment readiness, and (2) effective
             exercise and training programs that are in compliance with the objectives
             of the state’s homeland security program.

Management Comments and OIG Analysis
          On November 15, 2007, we received written comments to our September 7,
          2007 draft report (see Appendix G). The Grant Programs Directorate
          (successor to the Office of Grants and Training) concurred with the
          recommendations without providing specific comments on the draft report or
          corrective actions planned or taken. We subsequently requested that the
          Acting Assistant Administrator provide us a corrective action plan within
          90 days after issuance of this report.




        Audit of the State of Colorado Homeland Security Grants Program 


                                    Page 20 

Appendix A
Objective, Scope, and Methodology

                    The objective of this audit was to determine whether the State of Colorado
                    effectively and efficiently implemented its homeland security grant program,
                    achieved the goals of the program, and spent funds according to grant
                    requirements. Our goal was to identify problems and solutions to help DHS
                    and Colorado improve the nation’s ability to prevent, prepare for, and respond
                    to major disasters, terrorist attacks, and other emergencies (“all-hazards”
                    preparedness). To accomplish our objective, we examined the State
                    Administrative Agency’s internal control system; followed up on a related
                    State Auditor’s report, recommendations and questioned costs; and addressed
                    additional concerns reported by G&T regarding pervasive and serious
                    weaknesses in program management.

                    The scope of our audit included state homeland security and urban areas
                    security initiative grants awarded by G&T to the State of Colorado for FYs
                    2003 through 2006 (See Appendix B for grant program descriptions).

                    We worked closely with G&T and state officials at Colorado’s Office of the
                    State Auditor, the Colorado Department of Public Safety, the Colorado
                    Department of Local Affairs, five of the nine all-hazards regions (Northwest,
                    Northeast, North Central, South Central, and San Luis Valley), the Denver
                    UASI, and five state agencies (Governor’s Office of Cyber Security and the
                    Departments of Personnel and Administration, Public Safety, Revenue, and
                    Agriculture). We considered G&T and Colorado policies and procedures as
                    well as applicable federal requirements. We interviewed responsible officials
                    regarding Colorado’s homeland security strategy and achievement of
                    homeland security goals and objectives. We reviewed applicable
                    documentation supporting Colorado’s management of grant funds. We also
                    reviewed the 2005 Colorado State Auditor’s report and working papers. In
                    addition, our audit work regarding exercises and training included meetings
                    with appropriate grantee and sub-grantee officials, and a review of
                    administrative documentation.

                    We performed the audit between September 2006 and April 2007 and
                    conducted it in accordance with Government Auditing Standards prescribed
                    by the Comptroller General of the United States (Yellow Book, June 2003).
                    Although this audit included a review of claimed costs, we did not perform a
                    financial audit of those costs. Accordingly, we do not express an opinion on
                    Colorado’s financial statements or the funds claimed in the financial status
                    reports submitted to G&T.




                  Audit of the State of Colorado Homeland Security Grants Program 


                                              Page 21 

Appendix B
Homeland Security Grants 2003 - 2006

                    FY 2003 State Homeland Security Grant Program - Part I. (1) Purchase
                    specialized equipment to enhance the capability of grant recipients to respond
                    to incidents of terrorism involving the use of chemical, biological,
                    radiological, nuclear, or explosive weapons; (2) protect critical infrastructure
                    and prevent terrorist incidents; (3) cover costs related to the design,
                    development, conduct, and evaluation of chemical, biological, radiological,
                    nuclear, or explosive exercises; (4) provide funding for the design,
                    development, and conduct of chemical, biological, radiological, nuclear, or
                    explosive training programs; and (5) provide funding for costs associated with
                    updating and implementing grantees’ homeland security strategies.

                    FY 2003 State Homeland Security Grant Program - Part II. (1) Provide
                    supplemental funding for the program activities described above for Part I,
                    and (2) provide funding to mitigate the cost of enhanced security at critical
                    infrastructure facilities during the period of hostilities in Iraq and future
                    periods of heightened threat.

                    FY 2003 Urban Areas Security Initiative Grant Program. This initiative
                    includes an urban area assessment and strategy component, which will be used
                    by G&T and urban area working groups to both allocate grant funding and
                    guide delivery of direct services in the form of equipment, planning, training,
                    exercises, and technical assistance.

                    FY 2003 Urban Areas Security Initiative Grant Program – Part II. This
                    initiative provides financial assistance to address unique equipment, training,
                    planning, exercise and operational needs of large urban areas, and to assist
                    them in building an enhanced and sustainable capacity to prevent, respond to
                    and recover from threats or acts of terrorism.

                    FY 2004 Homeland Security Grant Program. Provide funding for
                    specialized equipment, training, exercises, and planning costs associated with
                    updating and implementing each state's homeland security strategy. Awards
                    under the FY 2004 program integrated three grants– State Homeland Security
                    Grant Program, Law Enforcement Terrorism Prevention Program, and
                    Citizens Corps Program – into a single application kit.

                    FY 2004 Urban Areas Security Initiative Grant Program. This initiative
                    includes an urban area assessment and strategy component, which will be used
                    by G&T and urban area working groups to both allocate grant funding and
                    guide delivery of direct services in the form of equipment, planning, training,
                    exercises, and technical assistance. In addition, this year’s grant allowed for
                    the funding of new urban areas as well as funds for identified mass transit
                    authorities to enhance their security and improve their preparedness.



                  Audit of the State of Colorado Homeland Security Grants Program 


                                              Page 22 

Appendix B
Homeland Security Grants 2003 - 2006

                    FY 2005 Homeland Security Grant Program. The FY 2005 Homeland
                    Security Grant Program was changed to integrate six programs into one
                    application kit; the State Homeland Security Program, the Urban Areas
                    Security Initiative, the Law Enforcement Terrorism Prevention Program, the
                    Citizen Corps Program, the Emergency Management Performance Grants, and
                    the Metropolitan Medical Response System. This funding and consolidation
                    of programs streamlined the process to enhance security and overall
                    preparedness to prevent, respond to, and recover from acts of terrorism. The
                    Homeland Security Grant Program will continue to provide funding for
                    planning, equipment, training, exercises, and program management and
                    administration for emergency prevention, preparedness, and response
                    personnel.

                    FY 2006 Homeland Security Grant Program. This FY 2006 grant program
                    maintained the concept of program integration by combining five programs
                    into one application kit; the State Homeland Security Program, the Urban
                    Areas Security Initiative, the Law Enforcement Terrorism Prevention
                    Program, the Citizen Corps Program, and the Metropolitan Medical Response
                    System. This program built upon previous improvements in the grant process
                    with the intent to focus resources towards building capabilities to achieve
                    national preparedness goals. Program guidelines required the use of a
                    risk-based approach to allocate funding. The program continued to provide
                    funding for planning, equipment, training, exercises, and program
                    management and administration for emergency prevention, preparedness, and
                    response personnel.




                  Audit of the State of Colorado Homeland Security Grants Program 


                                              Page 23 

 Appendix C
 Colorado Homeland Security Grant Program Funding Allocations FY 2003-2006


     Homeland Security
      Grants Program               FY 2003           FY 2004            FY 2005           FY 2006              Total


Homeland Security “First
Responder” Grants Program4        $34,591,0005       $28,041,000        $17,796,658         $8,080,000       $88,508,658
Urban Areas Security
Initiatives                        15,568,4746          8,595,347         8,718,395          4,380,000        37,262,216

Sub-Total                          $50,159,474       $36,636,347        $26,515,053       $12,460,000       $125,770,874


Law Enforcement Terrorism
and Prevention Program                     N/A          8,321,000         6,471,512          7,600,000        22,392,512
Metropolitan Medical
Response System                            N/A               N/A            682,776            696,990         1,379,766
Citizen Corps Program                      N/A            582,000           225,929            322,819         1,130,748
Buffer Zone Protection                     N/A               N/A          1,450,000               N/A          1,450,000
Transit Grant                              N/A               N/A          1,225,000               N/A          1,225,000
Emergency Management
Performance                                N/A               N/A          2,903,630               N/A          2,903,630
Sub-Total                                   $0         $8,903,000       $12,958,847         $8,619,809       $30,481,656


Combined Total                     $50,159,474       $45,539,347        $39,473,900       $21,079,809       $156,252,530




 4
   In FY 2003, the Homeland Security Grant was called “State Homeland Security Grant”.
 5
   The total of $34,591,000 included $9,480,000 awarded in FY 2003 – Part I and $25,111,000 ($21,763,000 for First
 Responder Preparedness and $3,348,000 for Critical Infrastructure Protection) awarded
 in FY 2003 – Part II.
 6
   The total of $15,568,474 was for the Urban Area Security Initiative Grant – Part II in FY 2003. The State did not
 receive any Urban Areas Security Initiative Grant – Part I funding in FY 2003.

                         Audit of the State of Colorado Homeland Security Grants Program

                                                        Page 24
Appendix D
Colorado’s Nine All-Hazard Regions




                                                                    Map Provided by the State of Colorado




                  Audit of the State of Colorado Homeland Security Grants Program

                                             Page 25
Appendix E
Multi Agency Coordination Center - Summary of Key Events

          Date                                                  Event
    April 2002        South Metro Fire Rescue Finance Corporation (South Metro Finance) holds title to
                      South Metro Fire & Rescue Building subject to mortgage.
    April 2002        South Metro Fire Rescue District leases South Metro Fire Rescue District building
                      from South Metro Finance; anticipates acquiring title by the end of December 2016.
    December 2003     Department of Local Affairs begins discussion with South Metro about leasing space
                      in the South Metro building.
    January 2004      The Department of Local Affairs applies for state homeland security grant of $1.25
                      million from the State Administrative Agency (Colorado Department of Public Safety).
    January 2004      South Metro Fire Rescue District receives $20,000 from 2004 Mineral Impact funds,
                      through the Department of Local Affairs, to design Multi Agency Coordination Center.
    February 2004     The Office for Domestic Preparedness approves using homeland security grant
                      program funds to prepay a long-term lease.
    July 2004         The Office of Justice Programs rescinds Office for Domestic Preparedness’ approval to
                      use homeland security grant funds to prepay a long term lease
    July 2004         The Governor changed the State Administrative Agency from the Department of
                      Public Safety to the Department of Local Affairs.
    July 2004         South Metro Fire Rescue District receives $1.2 million from 2005 Mineral Impact
                      funds through the Department of Local Affairs to build out the Multi Agency
                      Coordination Center.
    August 2004       The Department of Local Affairs signs sub-lease agreement with South Metro Fire
                      Rescue District with an option to purchase.
    August 2004       South Metro Fire Rescue District passes a resolution invoking purchase option in the
                      sub-lease allowing the state to make $1.5 million payment, $400,000 in cash within
                      60 days, and $1.1 million for the design, construction, and equipping of facilities by
                      the end of December 2005.
    October 2004      The Department of Local Affairs awards $1.6 million of 2004 homeland security grant
                      program funds to South Metro Fire Rescue District in exchange for the state’s right to
                      occupy the building and to satisfy South Metro Fire Rescue District’s August 2004
                      resolution plus $100,000 for state’s communications equipment.
    March 2005        The Department of Local Affairs pays South Metro Fire Rescue District $400,0007 in
                      homeland security grant program funds for payment of the cash portion of the state’s
                      $1.5 million advance payment towards purchase price. The state continued to have a
                      liability of $1.1 million which was later cancelled
    March to June     The Department of Local Affairs records a $1.1 million liability to South Metro Fire
    2005              Rescue District in its books by recording the sub-lease agreement as a capital lease.
                      The Department of Local Affairs later cancelled the liability because South Metro Fire
                      Rescue District donated $1.1 million to the Department.
    July 2005         The Department of Local Affairs obtained Office for Domestic Preparedness approval
                      to use $400,000 in homeland security grant program funds to pay rent under the
                      sub-lease through the grant performance period of November 30 2005. The
                      performance period was later extended to November 30, 2006.



7
 $400,000 was originally paid as part of the Department of Local Affairs’ SHSG to South Metro. The Department of
Local Affairs subsequently deobligated said money from South Metro’s SHSG and credited the payment to State’s
SHSG portion

                       Audit of the State of Colorado Homeland Security Grants Program

                                                     Page 26
Appendix E
Multi Agency Coordination Center - Summary of Key Events

      Date                                                  Event
 October 2005     The Office of the State Auditor issued an audit report regarding Colorado’s Homeland
                  Security Grant Program. The report found that the Department of Local Affairs had
                  not complied with state and federal guidelines with regard to the grants issued to South
                  Metro Fire Rescue District. The Office of the State Auditor found that the Department
                  of Local Affairs used grant monies in exchange for state’s right to occupy space in the
                  South Metro Fire Rescue District Building. The Office of the State Auditor concluded
                  that South Metro Fire Rescue District could not donate something it did not own (title
                  to the South Metro Fire Rescue District Building).
 December 2005    G&T conducted an independent review of state’s homeland security program and
                  raised similar concerns as reported by the Office of the State Auditor. G&T questioned
                  the $1.5 million in federal funds used by the Department of Local Affairs for
                  acquisition of Multi Agency Coordination Center.
 June 2006        G&T sends letter to the Department of Local Affairs requesting a 15-day response as
                  to actions taken by state on the Office of the State Auditor report. G&T requests
                  refund of $1.5 million federal funds used by Department of Local Affairs to acquire
                  Multi Agency Coordination Center.
 July 2006        The Department of Local Affairs reverted $1.5 million by warrant.




                  Audit of the State of Colorado Homeland Security Grants Program 


                                               Page 27 

   Appendix F
   Summary of Questioned Costs


                           Homeland Security Grant Program Questioned Costs
                                                                      INELIGIBLE     UNSUPPORTED
 Grant
                                                                         Costs          COSTS        Totals
 Year                  Description of questioned costs
                                             SUPPLANTING OF GRANT FUNDS
FY 2004   Acquisition of the Digital Trunked Radio controller #3.      $3,900,000              $0    $3,900,000
                               UNAPPROVED TRANSFERS/ COMMINGLING OF GRANT FUNDS.
FY 2003    • Transfer of FY 2004 homeland security grant program
              expenditures to the FY 2003 homeland security grant.        600,162               0       600,162
FY 2004    • Transfer of FY 2003 homeland security grant program
              expenditures to the FY 2004 homeland security grant.      $133,944                0     $133,944
FY 2004     • Transfer of FY 2005 homeland security grant program
               expenditures to the FY 2004 homeland security grant.      $632,511               0     $632,511
          SUB-TOTAL                                                     $5,266,617             $0    $5,266,617

                Urban Areas Security Initiative - Denver Urban Area Questioned Costs
                                                                      INELIGIBLE     UNSUPPORTED
 Grant
                                                                         Costs          COSTS        Totals
 Year                  Description of questioned costs
                             UNAPPROVED TRANSFERS/ COMMINGLING OF GRANT FUNDS.
FY 2003     • Transfer of FY 2003 UASI funds for costs budgeted
               under the FY 2005 UASI grant                           $1,399,895               $0    $1,399,895
FY 2003     • Transfer of FY 2003 Homeland Security Grant
               Program expenditures to the FY 2003 UASI grant            161,036                0       161,036
FY 2003     • Transfer of FY 2005 Law Enforcement Terrorism              134,011                0       134,011
               Prevention Program expenditures ($128,407) and FY
               2005 UASI expenditures ($5,604) to the FY 2003
               UASI grant-
FY 2004     • Transfer of FY 2005 UASI expenditures to the FY
               2004 UASI grant                                           395,994               $0       395,994
                                          INELIGIBLE CONSTRUCTION COSTS
FY 2003     • West Metro Fire Department                                 116,427                0       116,427
FY 2004     • City of Denver, Fire Department                            135,808                0       135,808
                                          UNSUPPORTED CONSULTING COSTS.
FY 2004     • Consulting fees not properly allocated to the grant                          229,508      229,508
          SUB-TOTAL                                                   $2,343,171          $229,508   $2,572,679

          COMBINED TOTAL QUESTIONED COSTS                               $7,609,788        $229,508   $7,839,296




                          Audit of the State of Colorado Homeland Security Grants Program 


                                                       Page 28 

Appendix G
Grant Programs Directorate’s Response to the Draft Report




                   Audit of the State of Colorado Homeland Security Grants Program 


                                               Page 29 

Appendix H
Major Contributors to this Report



                      Robert J. Lastrico, Audit Division Director
                      Humberto Melara, Supervisory Auditor
                      Ravi Anand, Auditor
                      Arona Maiava, Auditor
                      Bill Stark, Auditor
                      Carlos Feliciano, Program Analyst




                    Audit of the State of Colorado Homeland Security Grants Program

                                               Page 30
Appendix I
Report Distribution

                       Department of Homeland Security

                       Secretary
                       Deputy Secretary
                       Chief of Staff
                       Deputy Chief of Staff
                       General Counsel
                       Executive Secretariat
                       Under Secretary, Management
                       Chief Financial Officer
                       Chief Information Officer
                       Assistant Secretary, Public Affairs
                       Assistant Secretary, Policy
                       Assistant Secretary, Legislative Affairs
                       Chief Security Officer
                       DHS GAO/OIG Liaison
                       Chief Privacy Officer

                       Federal Emergency Management Agency

                       Administrator
                       Acting Assistant Administrator, Grant Programs Directorate
                       Acting Director, Financial Accountability and Oversight Division
                       OIG Audit Liaison

                       Office of Management and Budget

                       Chief, Homeland Security Bureau
                       DHS OIG Budget Examiner

                       Congress


                       Congressional Oversight and Appropriations Committees, as appropriate




                      Audit of the State of Colorado Homeland Security Grants Program 


                                                  Page 31 

                       Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to use at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528,

The OIG seeks to protect the identity of each writer and caller.
